No.
IN THE
SUPREME COURT OF THE UNITED STATES
October Term 2020

AMY EVERETT,

Petitioner,

v.

COBB COUNTY, GEORGIA, et al.,

Respondents.

CERTIFICATE OF SERVICE

This is to certify that John P. Batson, the undersigned, Supreme Court Bar Member did this date
cause a copy of: Petition for Writ of Certiorari, Appendix, Certificate of Service, and Certificate
of Word Count Compliance to be served upon Respondents and interested counsel:

EX] E-mailing a copy of the same to the email addresses listed below on the date of
electronic filing, March 29, 2021.

laura.murphree@cobbcounty.org, lauren. bruce@cobbcounty.org,
H.William.Rowling@cobbcounty.org
richard@cobbcountylaw.com

& By delivering a paper copy of the same to a third-party commercial carrier,
for delivery within three calendar days, addressed as follows:

Laura J. Murphree, Sr. Assoc. County Atty. Cobb County

Lauren Bruce, Asst. County Attorney Cobb County

H. William Rowling, Jr., County Attorney Cobb County 770-528-400
100 Cherokee Street, Suite 350

Marietta, GA 30090

FAX 770-528-4010

Richard Nolan Blevins, Jr. 678-354-2290
Blevins and Hong, P.C.

191 Roswell Street

Marietta, GA 30060

I further certify, pursuant to Rule 29.5, that all parties required to be served have been served.

This 29" day of March, 2021.
me, BATSON

1104 Miliedge Road

Augusta, GA 30904
706-737-4040
jpbatson@aol.com

Attorney for Petitioner Everette
Counsel of Record

Member of Supreme Court Bar

1

 
